No. 19-1328

 

 

In THE
Supreme Court of the United States

UNITED STATES DEPARTMENT OF JUSTICE,

Petitioner,
v.

COMMITTEE ON THE JUDICIARY OF THE
UNITED STATES HOUSE OF REPRESENTATIVES,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,858 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 15, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
